                                        TVA REST
                                               TRICTED INF
                                                         FORMATION




Mem
  morandum from
              m the Office of th
                               he Inspector Ge
                                             eneral



Ma
 ay 11, 2012

Robert M. Deacy, Sr., LP 5D-C
                         5

FIN
  NAL REPOR
          RT – INSPEC
                    CTION 2011-14109 – RE
                                        EVIEW OF N
                                                 NON-TIME-C
                                                          CRITICAL
KIN
  NGSTON AS
          SH RECOVE ERY PROJEECT ACTIVITTIES



Atta
   ached is thee subject fina
                            al inspection report for yo
                                                      our review. Your written
                                                                             n commentss,
which addresse  ed your actio
                            ons taken, have
                                        h    been in                         o further action is
                                                     ncluded in the report. No
neeeded at this time.

Info
   ormation con
              ntained in th
                          his report ma ay be subjecct to public disclosure. P
                                                                             Please advisse us
of any
   a sensitivee information             ort which yo u recommen
                           n in this repo                         nd be withhe
                                                                             eld.

If you
   y have any                                                                23) 785-4812 or
                y questions, please conttact Jake A. Stanford, Auditor, at (42
Gre            on, Director, Evaluations at (865) 633
    eg R. Stinso                                      3-7367. Wee appreciate the courtesyy and
coooperation recceived from your staff du
                                        uring the insspection.



Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Evaluations)
              E
ET 3C-K

JASS:FAJ
Atta
   achment
cc (Attachmentt):
      Micheal B.
               B Fussell, WT
                           W 9B-K
      Kimberly S. Greene, WT 7B-K
      Peyton T. Hairston, Jr.,
                            J WT 7B-K
                                    K
      Joseph J. Hoagland, WT 7B-K
      Tom Kilgoore, WT 7B--K
      Stephen H. McCracken, KFP 1T--KST
      Richard W.
               W Moore, ET 4C-K
      Emily J. Reynolds,
               R           OCP 1L-NST
      John M. Thomas
               T        III, MR
                             M 6D-C
      Robert B.. Wells, WT 9B-K
      OIG File No. 2011-14  4109


      WARNING: ThIs document is      i FOR OFFICIAL    L USE ONLY. Itt is to be controllled, stored, handdled, transmitted,
       distributed, and
                    a disposed of in accordance with w TVA policy re    elating to Informa
                                                                                         ation Security. T
                                                                                                         This information
               is no
                   ot to be further dis
                                      stributed withoutt prior approval o
                                                                        of the Inspector G
                                                                                         General or his de
                                                                                                         esignee.

                                        TVA REST
                                               TRICTED INF
                                                         FORMATION
 
                            TVA RE
                                 ESTRICTED
                                         D INFORMA
                                                 ATION



                                                                           Tennessee Valley Authorrity
                                                                           Office of the Insspector Ge
                                                                                                     eneral
 

Insspecction
           n Reeporrt
     



                                                                                                                                  

                                                                                                                                  

 

 

REV
  VIEW OF
       O N NONN-TIM
                  ME--
 
CR
 RITIC
     CAL
       L KINNGS
              STOON A
                    ASH
REC
  COVVER
       RY PPROJJEC
                 CT
ACTIV
    VITIE
        ES
 




 

 
 
 

 
                                                                                                       Inspe
                                                                                                           ection 2011-14109
                                                                                                                May 111, 2012


        WARNING: ThisT      document is FOR  R OFFICIAL USE ONLLY. It is to be controlle    ed, stored, handled, trransmitted,
        distributed, and
                     a disposed of in acc     cordance with TVA pollicy relating to Informa ation Security. This information
                is nott to be further distributted without prior approoval of the Inspector G
                                                                                            General or his designeee. 



                         TVA RES
                               STRICTED INFORMA
                                              ATION
 
Office of the Inspector General                                      Inspection Report




ABBREVIATIONS
CERCLA                     Comprehensive Environmental Response, Compensation,
                           and Liability Act
EE/CA                      Engineering Evaluation/Cost Analysis
EPA                        Environmental Protection Agency
KIF                        Kingston Fossil Plant
OIG                        Office of the Inspector General
PWS                        Perimeter Wall Stabilization
TDEC                       Tennessee Department of Environment and Conservation
TVA                        Tennessee Valley Authority




Inspection 2011-14109

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                              Inspection Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY… ............................................................................. i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 3

FINDINGS ......................................................................................................... 4

   TVA IS MAKING PROGRESS ON THE NON-TIME-CRITICAL
   PHASE OF THE KINGSTON ASH RECOVERY PROJECT ............................ 4
      Completed Non-Time-Critical Activities ........................................................... 4
          North Embayment ................................................................................... 5
            Dike C .............................................................................................................. 6
            Ball Field .......................................................................................................... 7
            Skimmer Wall ......................................................................................... 8
         Ongoing Non-Time-Critical Activities .............................................................. 8
            Middle Embayment ................................................................................. 8
            Perimeter Wall Stabilization ..................................................................... 9
            On-site Ash Disposal ............................................................................. 10
            Environmental Monitoring ...................................................................... 11
            Proposed Recreation Areas ................................................................... 12

   FIVE OF THE NINE PROJECTS REVIEWED HAVE BEEN
   DELAYED, WHICH INCREASES THE RISK THAT THE
   OVERALL PROJECT COULD BE DELAYED ................................................ 12
      Testing of Non-Time-Critical Activities .......................................................... 12

RECOMMENDATION ................................................................................... 14


APPENDICES

A. MAP OF THE KINGSTON ASH RECOVERY PROJECT SITE

B. MEMORANDUM DATED MAY 1, 2012, FROM ROBERT M. DEACY TO
   ROBERT E. MARTIN




Inspection 2011-14109

                                          TVA RESTRICTED INFORMATION
           Inspec
                ction 2011
                         1-14109 – Review of Non-T
                                                 Time-Critical
                Kingston
                K        Ash Rec overy Pro
                                         oject Acttivities
                                 EXECUTIV
                                 E      VE SUMM
                                              MARY

Why the
      e OIG Did This
                T    Review
                          w

  Basedd on the OIG G’s (Office off the Inspecttor General) ongoing commitment to o
  provid
       de oversight of the Kings              Plant ash spill cleanup, w
                                  ston Fossil P                        we reviewed
                                                                                 d the
  Tenneessee Valley  y Authority’s (TVA) non-ttime-critical Kingston Assh Recoveryy
  Projec
       ct activities.

  The objectives
      o           of this review were
                                 w    to deteermine (1) th  he overall sta
                                                                         atus of the n
                                                                                     non-
  time-c
       critical phase
                    e of the King
                                gston Ash Re ecovery Pro    oject and (2) if TVA is
  meeting the sched dule for non-time-critica l activities.

What the
       e OIG Foun
                nd

  Throuugh interview  ws, site visits
                                    s, and review
                                                w of docume   entation, we found that T
                                                                                      TVA
  has made
       m       significant progress s in the non--time-criticall phase of th
                                                                           he Kingston A
                                                                                       Ash
  Recov  very Project.. Specifically, TVA has recently com    mpleted the following
  activitties:

     Re
       emoving ash
                 h from the North Embay ment.
     Bu
       uttressing off Dike C.
     Trransferring a portion of the ball field to the Kingsston Fossil P
                                                                        Plant.
      eplacing the skimmer wa
      Re                     all in the inta
                                           ake channel.

  In add
       dition, TVA has                                  es that inclu
                   h ongoing non-time-crritical activitie           ude:

     Ex
       xcavating as
                  sh from the Middle
                              M      Emba
                                        ayment.
     Coonstructing the      er Wall Stab ilization arou
                    t Perimete                         und the on-ssite disposal
      arreas.
     Disposing of ash
                   a on-site.
     Sttudying the effects
                    e       of res
                                 sidual ash on
                                             n the river syystem.
     Crreating a ma
                   aster plan for park and re
                                            ecreation arreas.

  While TVA is mak  king progress in the com mpletion of no on-time-criticcal activitiess, we
  found that five of nine activitie
                                  es reviewed did not mee  et the schedu  uled comple  etion
  date. If the projec
                    ct continues late comple etion of activvities, there iss an increassed
  risk th
        hat the overa
                    all project co
                                 ompletion daate of 2015, d disclosed in the compan     ny’s
  financcial statemen
                    nts, could be e delayed.




                                                                                                Page i

                           TVA RES
                                 STRICTED INF
                                            FORMATION
           Inspec
                ction 2011
                         1-14109 – Review of Non-T
                                                 Time-Critical
                Kingston
                K        Ash Rec overy Pro
                                         oject Acttivities
                                EXECUTIV
                                E      VE SUMM
                                             MARY

What the
       e OIG Reco
                ommends

  We reecommend TVA’s
                   T       Seniorr Vice Presid dent, Genera ation Constrruction, evaluate
  the cu
       urrent schedule to determ  mine if the id
                                               dentified dela
                                                            ays have caaused overalll
  scheddule slippage
                   e. If it is deteermined tha t the overall schedule wwill be delaye
                                                                                    ed
  beyonnd the date disclosed
                   d            in the footnote
                                              es to TVA’s ffinancial stattements, the
                                                                                    en
  the dis
        sclosure sho
                   ould be upda   ated.

TVA Man
      nagement’’s Commen
                       nts

  TVA managemen
       m            t agreed witth our recom
                                           mmendation aand has takeen actions to
                                                                               o
  addreess it. Manag
                   gement also o provided a few adminisstrative and clarifying
  comm ments that we
                   ere evaluate
                              ed and incorp porated as a
                                                       appropriate. See Appen  ndix B
  for TV
       VA’s complette response.

Auditor’s Respons
                se

  The OIG
      O concurs with actions
                           s taken by TV
                                       VA to correcct the identiffied issue.




                                                                                            Page iii

                         TVA RES
                               STRICTED INF
                                          FORMATION
Office of the Inspector General                                                          Inspection Report


BACKGROUND
On Monday, December 22, 2008, the ash containment area at the Kingston
Fossil Plant (KIF) failed. Approximately 5.4 million cubic yards of fly ash and
bottom ash were released onto land and adjacent waterways, including the
Emory River that flows into the Clinch River near the plant. The approximate
1 billion gallons of coal combustion waste slurry covered about 300 acres of
which 8 acres were privately owned lands, not owned or managed by the
Tennessee Valley Authority (TVA).

TVA is working with the Environmental Protection Agency (EPA) and the
Tennessee Department of Environment and Conservation (TDEC) to manage the
cleanup of the Kingston ash spill in accordance with the Comprehensive
Environmental Response, Compensation, and Liability Act (CERCLA).1 The
major recovery work necessary at Kingston is divided into time-critical (Phase I)
and non-time-critical (Phase II) activities. The time-critical work focused on
removing the ash from the Emory River’s main channel and the waters directly
east of the site’s ash-storage area. The non-time-critical ash consists of the ash
in the embayments and the ash on the land west of Dike 2 (see Appendix A for a
map of the project site). TVA finished removing the time-critical ash necessary
for the reopening of the Emory River at the end of May 2010.2 A majority of the
ash was sent to a disposal site in Perry County, Alabama, and this off-site
disposal was completed in December 2010.

In order to transition from the time-critical ash removal to the non-time-critical ash
removal, TVA prepared a non-time-critical CERCLA Engineering Evaluation/Cost
Analysis (EE/CA). The EE/CA presented three alternatives to meet the CERCLA
requirements. The requirements were to (1) protect public health and the
environment over the long term, (2) comply with state and local regulations, and
(3) be cost effective. The differences between the three alternatives included the
(a) amount of coal ash disposed off-site versus on-site, (b) final elevation of
closed dredge cell, (c) type and amount of construction traffic, (d) duration of
work, and (e) cost. Common elements among the three alternatives included
(1) restoration of embayments and sloughs to pre-spill conditions, (2) closure of
failed dredge cell and adjacent ash pond, and (3) enhanced perimeter dikes
designed to withstand liquefaction of foundation ash at earthquake loads.

The plan was made available for public comment, and those comments were
individually addressed by TVA. In the end, an alternative was selected that TVA
and EPA believe meets the Removal Action Objective, complies with the
applicable requirements, effectively and safely contains the ash, minimizes
1
    On May 11, 2009, TVA and EPA entered into an Administrative Order and Agreement on Consent under
    Sections 104(a), 106(a), and 107 of the CERCLA of 1980 pursuant to which TVA will perform the
    removal action described in the Agreement on Consent. This removal action involves the removal,
    processing, and disposal of a major portion of the ash material that was released into the Emory River
    from KIF.
2
    Some small pockets of Phase I critical ash not necessary for the reopening of the Emory River were
    addressed in June 2010.
Inspection 2011-14109                                                                              Page 1

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                         Inspection Report


off-site transportation and disposal impacts, reduces uncertainty associated with
acceptability of off-site disposal, and is the most cost effective. This alternative
calls for all non-time-critical ash to remain on-site and includes constructing a
new dike, that is to reach the shale bedrock, around the perimeter of the on-site
disposal area.

The Non-Time-Critical Removal Action Work Plan includes the following
objectives:

    Embayment Ash Removal – Removing ash from the embayment, drying the
     ash, and transporting the ash to on-site disposal areas.
    Embayment Restoration – Restoring the embayment ecosystem to pre-spill
     conditions.
    Perimeter Containment – Creating a stabilization zone that surrounds the
     former Dredge Cell and Ash Pond (Perimeter Wall Stabilization [PWS]).
    Ash Stacking – Stacking ash in phases in the Dredge Cell, Lateral Expansion
     Area, and Ash Pond.
    Dredge Cell and Ash Pond Closure – Capping cell with a soil cover, which will
     be seeded and mulched.
    Operations and Maintenance/Post Closure Care – Comprehensive
     engineering monitoring, long-term ground and surface monitoring, periodic
     repairs and inspections, and environmental monitoring.

According to the first quarter 2012 financial statement, TVA estimates the
physical cleanup work will be completed in the last quarter of 2014, and the
overall project completion date will be in 2015.

Office of the Inspector General Monitoring
This review is a continuation of TVA Inspector General Richard W. Moore’s
commitment to conducting follow-up reviews in regard to reparations to victims
and assessing TVA’s actions in cleaning up the Kingston ash spill.

Prior to this review, TVA’s Office of the Inspector General (OIG) completed
several reviews pertaining to the initial emergency response, root cause analysis,
environmental monitoring, impoundment stability, and the time-critical phase of
the cleanup and recovery efforts.3




3
    2008-12283-01 – Kingston Fossil Plant Ash Slide Interim Report; 2008-12283-02 – Review of the
    Kingston Fossil Plant Ash Spill Root Cause Study and Observations About Ash Management;
    2008-12283-07 – Review of the Environmental Sampling and Monitoring Plans for the Kingston Ash Spill;
    2009-12910-01 – Peer Review of Stability Analysis of Dike C at Kingston Fossil Plant; and
    2010-13034 – Review of TVA’s Kingston Ash Spill Clean-up and Recovery Efforts.
Inspection 2011-14109                                                                             Page 2

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                       Inspection Report


OBJECTIVES, SCOPE, AND METHODOLOGY
The objectives of this review were to determine (1) the overall status of the
non-time-critical phase of the Kingston Ash Recovery Project and (2) if TVA is
meeting the schedule for non-time-critical activities. The scope of this review
included the progress of the Kingston Ash Recovery Project from the beginning
of the non-time-critical phase through December 2011, including restoration and
enhancement of the surrounding areas.

To achieve our objectives, we:

   Interviewed key TVA personnel about the status of non-time-critical Kingston
    Ash Recovery Project activities, the restoration to the surrounding areas, and
    any hard spots in the project moving forward, in order to determine the plans
    and progress of the project.
   Conducted a walkdown of the non-time-critical removal areas, as well as the
    future park and recreation areas, in order to observe the progress that has
    been made.
   Obtained and reviewed schedule and timeline documentation from the
    beginning of the non-time-critical phase through December 2011, in order to
    determine the plans and progress of the project.
   Identified completed non-time-critical activities in order to verify completion
    and timeliness. If items were not completed on time, we determined the
    cause of the delays. Specific steps taken included:
    - Judgmentally selecting nine of the most significant, completed non-time-
       critical activities for testing.
    - Obtaining the planned start date, actual start date, planned finish date,
       and actual finished date for the nine activities reviewed.
    - Reviewing documentation, when available, to verify the completion dates.
       If schedule items were not completed on time, we looked for reasons or
       explanations as to why they were not completed as planned.

This review was conducted in accordance with the “Quality Standards for
Inspection and Evaluation.”




Inspection 2011-14109                                                           Page 3

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Inspection Report


FINDINGS
While TVA is making progress in the completion of non-time-critical activities, we
found that five of the nine non-time-critical activities reviewed were completed
after their scheduled completion date. However, according to Kingston Ash
Recovery Project management, none of these delays have affected the overall
project schedule. If the project continues late completion of activities, there is an
increased risk that the overall project completion date could be delayed.

TVA IS MAKING PROGRESS ON THE NON-TIME-CRITICAL
PHASE OF THE KINGSTON ASH RECOVERY PROJECT
Through interviews, site visits, and review of documentation, we found that TVA
has made progress in the non-time-critical phase of the Kingston Ash Recovery
Project. Specifically, TVA has recently completed the following activities:

   Removing ash from the North Embayment.
   Buttressing of Dike C.
   Transferring a portion of the ball field to KIF.
   Replacing the skimmer wall in the intake channel.

In addition, TVA has ongoing non-time-critical activities that include:

   Excavating ash from the Middle Embayment.
   Constructing the PWS around the on-site disposal area.
   Disposing of ash on-site.
   Studying the effects of residual ash on the river system.
   Creating a master plan for park and recreation areas.

Completed Non-Time-Critical Activities
Activities that have recently been completed include removal of ash in the North
Embayment, buttressing of Dike C, transferring a portion of the ball field to KIF,
and replacement of the skimmer wall in the intake channel. The completion of
each of these activities is important to achieving the objectives described within
the Non-Time-Critical Removal Action Work Plan.




Inspection 2011-14109                                                               Page 4

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                     Inspection Report


North Embayment
TVA has completed ash removal in the North Embayment, which began in
November 2010. The work plan for the North Embayment included removing ash
and restoring the area to pre-spill conditions. In order to confirm that TVA had
completed ash removal in this embayment, testing was required to make sure the
level of ash in the soil met EPA criteria. On December 7, 2011, TVA received
signed confirmation from EPA that the North Embayment met the required criteria.
The North Embayment has since been filled with water, as seen in Figure 1.

                           Figure 1: Restored North Embayment




                Source: Picture provided by Kingston Ash Recovery Project management.




Inspection 2011-14109                                                                         Page 5

                                  TVA RESTRICTED INFORMATION
Office
O      of the Insp
                 pector Generall                                                           Inspection R
                                                                                                      Report


Dike
D     C
During
D       the tiime-critical phase, Sta antec Consu    ulting was ccommission   ned to inspect
and evaluate  e the structtural integritty of ash sttorage faciliities at all T
                                                                              TVA fossil
plants. Stan ntec conduc  cted a study y to evaluate the stability of Dike C at KIF. This
sttudy found that the co ondition of Dike
                                      D      C did nnot exhibit a
                                                                acceptable factors of
safety for lon
             ng-term sta ability. Therefore, Stan   ntec recommmended that “TVA build a
buttress on Dike C, which surroun     nds the ash collection pond and the stilling
pond, in order to improve the overrall safety o    of the dike.”” In order to  o accomplissh
th
 he goal, TVVA needed to  t add layers of sand, stone, and     d Class B4 rriprap along  g
Dike
D     C. This s added thickness and   d weight to the dike, w  which increa   ased resista
                                                                                         ance
to
 o movemen   nt and strenngthened th he dike. The reinforcement of Dikke C began         n in
December
D           2009
            2      and was completted in Octob      ber 2011. F  Figure 2 sh  hows the
completed Dike
            D      C.

                                     Figure 2:
                                            2 Comple
                                                   eted Dike C




                                   Source: December 2011 EP
                                                          PA Status Upd
                                                                      date




4
    Tennessee Department
                D            of Transportation
                                T                         hined Riprap – Consists of quarry stone varyying in
                                               Class B Mach
    size from 3 in
                 nches to 2.25 feet.
                               f
In
 nspection 2011-14109                                                                                 P
                                                                                                      Page 6

                                      TVA RES
                                            STRICTED INF
                                                       FORMATION
Office of the Inspector General                                                      Inspection Report


Ball Field
During the time-critical phase, ash was placed on the ball field to dry before being
loaded into rail cars for transportation to the landfill in Alabama. Currently, it is
being used for moisture conditioning of the non-time-critical ash that is being
removed from affected areas, such as the embayments. A portion of the ball field
was turned back over to KIF on November 11, 2011, to be used for the dry fly ash
system conversion project. In order to turn the ball field over to KIF, remaining
ash was placed in the on-site disposal area, and the field was contoured to a new
elevation. Figure 3 shows the ball field.

                                      Figure 3: Ball Field




                 Source: Picture provided by Kingston Ash Recovery Project management.




Inspection 2011-14109                                                                          Page 7

                                  TVA RESTRICTED INFORMATION
Office
O      of the Insp
                 pector Generall                                                     Inspection R
                                                                                                Report


Skimmer
S         Wa all
The
T skimme    er wall locatted inside th
                                     he intake channel at KKIF was dammaged duriing
th
 he ash spill and has be een replace ed as seen in Figure 44. The skim
                                                                     mmer wall a
                                                                               allows
cool water too enter the intake chan nnel for use
                                                e in plant processes a
                                                                     and blocks d
                                                                                debris
frrom entering the intakee. The con nstruction off the skimm
                                                           mer wall beg
                                                                      gan June 2
                                                                               24,
2010, and was
            w completted on December 3, 2 010.

                       Figurre 4: Skimmer Wall a
                                               and Intake Channel




                 Source: Pictu
                             ure provided by
                                           y Kingston Ash
                                                        h Recovery Pro
                                                                     oject management.


Ongoing
O          No
            on-Time-Critical Activities
Ongoing
O         acttivities inclu
                          ude, but are
                                     e not limited
                                                 d to, excava ating ash frrom the Mid ddle
Embayment
E           t, constructiion of the perimeter
                                     p          waall stabiliza
                                                              ation, stackiing ash in the
on-site dispo
            osal areas, performing   g a study off the effectss of residua
                                                                         al ash on the
river system
           m, and desig   gning park and
                                      a recreattion areas.

Middle
M       Embayment
The
T Middle Embaymen       nt is an area
                                    a affected bby the ash sspill that is located jusst
south of Swa an Pond Ciircle Road, as seen in the map in  n Appendix A. TVA is
working
w        to excavate
            e         the
                        e ash and bring
                                    b     the arrea back to pre-spill co ondition. TV VA
began excav  vating ash from
                         f     the Middle Emba ayment in AAugust 2010    0 in order to
                                                                                     o
allow an undderpass to be built und der Swan P Pond Circle Road. During
constructionn of the underpass, ash h removal in the Middle Embaym      ment stoppe ed
until work waas complete in the No orth Embaym  ment. How wever, portio  ons of the
Middle
M       Embayment were used to process assh that was being remo          oved from tthe
North
N      Embayment. Aftter ash removal in the North Emb     bayment wa     as complete e,
TVA
T     continu
            ued the remmoval of ash h from the M
                                               Middle Emb  bayment. A    Ash remova  al in
th
 he Middle Embayment
            E           t is schedulled to be coompleted in
                                                          n late 2012..



In
 nspection 2011-14109                                                                          P
                                                                                               Page 8

                                   TVA RES
                                         STRICTED INF
                                                    FORMATION
Office
O      of the Insp
                 pector Generall                                                                 Inspection R
                                                                                                            Report


Perimeter
P          Wall
           W Stabilization
TVA
T    contraccted with Ge  eo-Con5 to build a stabilized perimeter conttainment
around the Ash
            A Pond, Lateral
                         L       Exppansion, an d Dredge C  Cell areas. The PWS is
an undergro ound wall thhat extends 2-3 feet intto the shalee bedrock aand is being
                                                                                  g
                                            6
created usinng a slurry trenching
                         t         method.
                                   m           Th
                                                he PWS is being built, as seen in n
Figure
F      5, to prevent ash from relea  asing outsidde the ash landfill and
                                                                       d is designe
                                                                                  ed to
mitigate
m        facttors that contributed to
                                    o the failure
                                                e of the form
                                                            mer Dredge e Cell. The wall
 s designed to withstand a 6.0 earrthquake on
is                                              n the East TTennessee Fault and a
7.6 earthquaake on the New Madrid    d Fault.

A demonstra  ation was performed
                        p          in
                                    n order to pprovide info ormation necessary to
re
 efine the waall design. For the demonstration   n, Geo-Con  n built a seg
                                                                         gment of the
PWS,
P      whichh was then thoroughly
                         t                                   d strength. The
                                     tested for sstability and
constructionn of the demmonstration wall began  n on April 11, 2011, an  nd ended
April
A     20, 201
            11. The res sults of the testing shoowed the de   emonstratioon wall did not
meet
m     strength requiremments, and the
                                    t specificcations needed to be im    mproved. N  New
specification
            ns were sub bmitted to th
                                    he EPA on July 11, 20    011, and TV VA started
building Seggment 1A of the PWS on July 19,, 2011. How        wever, the approval foor
th
 he new spe ecifications was
                         w not sig  gned by thee EPA until August 4, 2   2011.

                                Figure
                                F      5: Constructio
                                          C         on of the P
                                                              PWS




                  Source: Pictu
                              ure provided by
                                            y Kingston Ash
                                                         h Recovery Pro
                                                                      oject management.




5
    Geo-Con is a geotechnical contractor with  h experience an nd capabilities that include en
                                                                                             nvironmental
    remediation, wetlands mitig
                              gation, enhance  ement and resttoration, and ge eotechnical construction.
6
    Based on infformation provid
                               ded by TVA, th he walls will be excavated usiing slurry trencch methods; as the
                cavated, viscous slurry will be added to the ttrench to suppo
    trench is exc                                                             ort the sidewallls. The slurry ttrench
    method used d for the PWS is a cement-bentonite method    d, which uses sself-hardening slurry that beco  omes
    a permanentt backfill.
In
 nspection 2011-14109                                                                                       P
                                                                                                            Page 9

                                       TVA RES
                                             STRICTED INF
                                                        FORMATION
Office of the Inspector General                                                   Inspection Report


According to TVA management, the construction of the PWS has become a hard
spot. Engineering design, which is proceeding in parallel with construction, has
resulted in higher than previously estimated material quantities. It has also been
necessary to increase slurry strength in order to accommodate uncertainties in
field testing of the material. Finally, wet weather and unexpected subsurface
conditions have increased difficulty of PWS installation in some areas. Each
design phase goes through site, corporate, and regulatory reviews, which also
have some impact on the schedule for design delivery. TVA management
indicated that numerous activities are underway to address this hard spot,
including the installation of wick drains7 to improve wet conditions on and below
the working surface.

On-site Ash Disposal
Non-time-critical ash will be placed in on-site disposal areas. Those areas have
been designated as the Dredge Cell, Lateral Expansion, and Ash Pond. The
following process is being used to place the ash into those areas:

    Once ash has been excavated from the embayment, it is dewatered (dried), if
     needed.
    When the ash has reached the proper moisture content, between 21 and
     27 percent, it is transported to the on-site disposal areas in the Dredge Cell
     and Ash Pond.
    Some of the wetter ash is spread out and disked or rolled in order to allow it
     to reach the correct moisture content.
    Dust suppression is periodically sprayed on the ash in order to control dust.
    Water run-off from the drying areas flows into the Stilling Pond. There are
     also settling basins that serve as treatment systems for the water.




7
    According to TVA, a wick drain is a prefabricated vertical draining system.
Inspection 2011-14109                                                                     Page 10

                                     TVA RESTRICTED INFORMATION
Office
O      of the Insp
                 pector Generall                                                              Inspection R
                                                                                                         Report


Currently,
C          TV
            VA is in the
                       e process of
                                 o stacking a ash in these
                                                         e on-site disposal areaas,
as seen in Figure
           F       6. Once all ash has been sstacked intto the on-sitte disposal
areas, the Dredge
           D        Cell, Ash Pond, and Laterral Expansio on will be cclosed in
accordance with the Te ennessee Solid
                                 S     Waste  e Rule 12000-1-7.8 The e closure wiill
in
 nclude a soil cover and
                       d a geosyntthetic liner system. Thhe cap will then be
seeded and mulched.

                    Figure 6:
                           6 Ash Sta
                                   acking in O
                                             On-site Disposal Area
                                                                 a




                            Source: Decemb
                                         ber 8, 2011, EP
                                                       PA Public Prese
                                                                     entation

Environmen
E            tal Monitoring
TVA,
T     EPA, and
            a TDEC are    a continu uing to monitor air and water. As of Decemb     ber 7,
2011, samplles taken co   onfirm that the air and
                                                d water in th
                                                            he Kingston n ash spill a
                                                                                    area
meet
m     public health stan ndards. In addition,
                                     a         TV
                                                VA will be ddoing real-time monito  oring
of the ash poond until it is capped. According to TVA ma    anagement, TVA is no    o
lo
 onger condu ucting riverr-based monitoring. TV  VA stopped d the river-b
                                                                        based
monitoring
m           because
            b          EPPA and TDE EC both ag reed that te est results h
                                                                        have proven that
la
 arge amoun nts of ash are
                        a no longe   er being moobilized by storms.

 n addition to
In             o Phase I (ttime-critical) and Phasse II (non-tiime-critical)), there is a
Phase
P       III tha
              at involves a separate EE/CA, initiated in Ma    ay 2010, thhat is intend ded
to
 o focus on potential
               p        su
                         ub-lethal, cu umulative, aand long-te
                                                             erm effects of residual ash
in
 n the Emory  y, Clinch, and Tenness   see Rivers.. Sampling g for the EE E/CA include   es,
but is not lim
             mited to: assh deposits, fish, wildlife, aquatic vegetation, surface and
ground wate   er, sedimennts, and ben              ebrates.9 T
                                       nthic inverte         The EE/CA is schedule      ed to
be complete   ed in June 2012
                         2      and will
                                      w help to d determine hhow much lo    ong-term
monitoring
m             will
              w be nece  essary in the e Emory Riiver.


8
    The Tenness  see Solid Wastte Rule 1200-1-7 gives speciffic rules and regulations regarding the consttruction
    and use of vaarious types off solid waste dis
                                                sposal areas w within the state of Tennessee,, including, but not
    limited to ash
                 h.
9
    “Benthic inveertebrates are organisms
                                o           that live on the botttom of a waterr body (or in the
                                                                                               e sediment) an
                                                                                                            nd
    have no back kbone.” (Sourc ce: OzCoasts.gov.au)
In
 nspection 2011-14109                                                                                  Pa
                                                                                                        age 11

                                     TVA RES
                                           STRICTED INF
                                                      FORMATION
Office of the Inspector General                                                           Inspection Report


Proposed Recreation Areas
TVA has proposed to develop recreation areas near KIF to enhance and restore
some of the land and recreation opportunities that were impacted by the spill.
TVA has purchased about 900 acres of residential property as a result of the ash
spill and will use a portion of that land for the recreation areas. A public meeting
was held in Kingston on August 2, 2011, to discuss conceptual plans for the
properties with the community. Conceptual drawings include proposed ball fields,
recreation areas, and a wetland/wildlife observation area. In November 2011,
TVA completed a final environmental assessment that found no significant
environmental impacts that would affect the planned recreation areas. The first
draft of the master plan for the recreation areas was completed in March 2012.
According to TVA documentation, the park and recreation areas are expected to
be completed in 2014.

FIVE OF THE NINE PROJECTS REVIEWED HAVE BEEN
DELAYED, WHICH INCREASES THE RISK THAT THE OVERALL
PROJECT COULD BE DELAYED

Testing of Non-Time-Critical Activities
In the disclosures to TVA’s financial statements, the company states the clean-up
project will be completed by 2015. To get a sense of whether TVA will meet this
target date, we reviewed TVA’s progress in meeting dates for nine specific non-
time-critical activities. While not meeting dates on specific projects does not
mean TVA will miss its overall target date, it would be an indicator of risk.

As part of our review, we tested nine non-time-critical activities to determine if
they were being started and completed on time. For each activity, we obtained
the planned start date, actual start date, planned finish date, and actual finish
date as seen on the following page in Figure 7.10

Figure 7, on the following page, shows that six of the activities had a delayed
start, delayed finish, or both. Five of the projects had a delayed finish.
Explanations for the delays were obtained through documentation and
management interviews and include inclement weather, removal of excessive
debris, such as trees, changes in conceptual drawings, design changes, and
unexpected delays in procurement. The delays for the five projects ranged
from 1 to 7½ months.

In addition, one project finished approximately 6½ months early--the removal of
bulk ash from the North Embayment. This project finished early due to a more
focused effort driven by TVA’s Senior Vice President, Generation Construction.




10
     We reviewed documentation to verify the dates given and compared the verified dates back to the overall
     project schedule dates.
Inspection 2011-14109                                                                              Page 12

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                 Inspection Report


In conclusion, the results of our testing show that five of the nine projects had a
delayed finish with a range of 1 to 7½ months. If the project continues late
completion of activities, there is an increased risk that the overall project
completion date could be delayed.

            Figure 7: Non-Time-Critical Activities Selected for Testing

                                                     Start                              Finish
                            Planned      Actual               Planned      Actual
        Activity                                     Date                                Date
                             Start        Start                Finish      Finish
                                                     Met?                                Met?
 Relocated civil
 projects material
 access point for           9/2/2011     9/2/2011    Yes     10/14/2011   10/14/2011     Yes
 access to segment
 8 wall construction.
 Replacement of
 skimmer wall at            6/24/2010   6/24/2010    Yes      9/9/2010    12/8/2010       No
 intake channel.
 Wrote, submitted,
 and received
 regulators’
 approval of Non-           6/24/2009   6/24/2009    Yes     5/18/2010    5/18/2010      Yes
 Time-Critical
 EE/CA and Action
 Memo documents.
 Designed and
 constructed
 underpass
                            2/15/2010   2/15/2010    Yes     10/5/2010    11/10/2010      No
 structure for North
 Embayment access
 for ash removal.
 North Embayment
                            10/6/2010   11/19/2010    No     6/26/2012    12/7/2011      Yes
 bulk ash removal.
 Repaved Swan
 Pond Road as
                            9/12/2011   9/12/2011    Yes     9/16/2011    9/16/2011      Yes
 follow-up to public
 utilities work.
 Design for first
 segment of the
 PWS with                   6/7/2010     6/7/2010    Yes     12/17/2010    8/4/2011       No
 regulators’
 approval.
 Procured and
 awarded contract
 for PWS
                            10/7/2010   9/20/2010    Yes     3/23/2011    7/19/2011       No
 construction, and
 began full scale
 production.
 Phase 2 ash
 stacking in the
                            8/16/2010   9/16/2010     No     5/25/2011     8/2/2011       No
 Central dredge cell
 area.




Inspection 2011-14109                                                                   Page 13

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                     Inspection Report


RECOMMENDATION
We recommend TVA’s Senior Vice President, Generation Construction, evaluate
the current schedule to determine if the identified delays have caused overall
schedule slippage. If it is determined that the overall schedule will be delayed
beyond the date disclosed in the footnotes to TVA’s financial statements, then
the disclosure should be updated.

TVA Management’s Comments – TVA management agreed with our
recommendation and provided a few administrative and clarifying comments for
our consideration. We reviewed and modified the report as appropriate. At the
time the draft report was issued to TVA, the OIG was aware that rebaselining
was being performed but was not made aware it had been finalized. The
rebaseline shows the Kingston Recovery Project is still on schedule for the
physical cleanup work to be completed in the last quarter of 2014 and the overall
project completion date to be in 2015. See Appendix B for TVA’s complete
response.

Auditor's Response – The OIG concurs with the actions taken.




Inspection 2011-14109                                                       Page 14

                                  TVA RESTRICTED INFORMATION
                                                            APPENDIX A
                                                             Page 1 of 1

Map of the Kingston Ash Recovery Project Site




 Source: EPA’s Kingston Web site (www.epakingstontva.com)




            TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 1 of 2




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 2 of 2




TVA RESTRICTED INFORMATION
